                     TESTIMONY OF WILLIAM S. MAHARAY
                          DEPUTY INSPECTOR GENERAL
                               FOR AUDIT SERVICES
                          U.S. DEPARTMENT OF ENERGY
                                WASHINGTON D.C.

                          BEFORE THE
          SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
               ORGANIZATION AND PROCUREMENT
        COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM
                U.S. HOUSE OF REPRESENTATIVES

                                    MARCH 20,2007


Mr. Chairman and members of the Subcommittee, I am pleased to be here at your request

to testify on issues associated with the FY 2005 and 2006 Audits of the Department of

Energy's Financial Statements. Over the years, the Office of Inspector General has

conducted and overseen a number of reviews of the accounting and financial operations

of the Department. Our reviews related to the audits of the year-end financial statements

have covered accounting information system issues, financial statement reporting, and

actions to remediate financial accounting and reporting weaknesses. Prior to discussing

these subjects, I would like to provide some background information on the Department's

financial information management system.



The Department's system, which is relatively unique in the Federal sector, is a hybrid in

that it combines summary data from its major contractors with transaction data generated

by the business activities of numerous Departmental organizations and sites. Rather than

being included in Departmental records, detailed contractor transaction data is maintained

by - and audited at - each of the contractor locations. As a control measure, both

co11tractol.sand Federal officials are required to ensure that the summary data transmitted
from and accepted by the Department's accounting information system is periodically

I-cconciled to the contractors' systems. Over 70 percent of the Department's budget is

ultimately expended by its integrated contractors.



Changes to Accounting Operations

The Department was able to sustain unqualified audit opinions on its financial statements

until Fiscal Year (FY) 2005. This changed when the Department embarked on the mid-

year implementation of a new financial accounting information system known as the

Standa~dAccounting and Reporting System (STARS). The change in accounting system

was necessary to ( I ) ensure that the Department could implement the U.S. Government

Standard General Ledger (SGL) at the transaction level and, (2) prevent operational

disruption when the legacy hardware vendor stopped supporting its product, and (3)

comply with requirements to establish and maintain a modern financial management

systcm that would permit the systematic measurement of performance; the development

of cost information; and the integration of program, budget, and financial information for

management reporting.



The Departmcnl undertook the system development/replacement effort during a period of

significant organizational change associated with a Competitive Sourcing Initiative

required by OMB Circular A-76. To conform to the structure established through that

initiative, the Department's financial services organization was extensively reorganized

during Fiscal Years 2004 and 2005. The reorganization resulted in consolidating the

financial recording and reporting processes that were previously performed at many
separate locations into three sites. The centralization had a negative effect on financial
accounting staffing levels and skills mix in that many key accounting personnel were

reassigned and many others were lost through attrition. Centralization also changed the

manner in which the Department's financial accounting system interfaced with its major

contractors, budgetary and other ancillary systems.



I're-Implementation Reviews

Because ol concerns with completing these major initiatives simultaneously and potential

problems related to planning and system development activities, the Office of Inspector

General performed two pre-implementation reviews of STARS. The first of these

reviews, co~npletedin August 2004, identified a number of challenges that increased the

risk that the Department would not be prepared to launch a fully capable system on

schedule. Speci ficall y:

        Demands on existing staff would increase substantially and i t was uncertain

        whethcr resources would be available to complete implementation and testing;

        CI-iticall y important training was behind schedule;

        Integrated contractor interface testing had not been completed; and,

        Proper cleanup and conversion of field site data to STARS were not expected to

        be completed prior to implementation.

We made a number of suggestions to prioritize and resolve critical issues before

implementation of the new system. Based on our review and other factors, the

Department made the decision to delay its original October 2004 imple~nentationuntil

Apri 1 2005.
During [he intervening period, our Office conducted a follow-up review, completed on

January 1 1 , 2005, that identified additional challenges. While progress was made on

certain I'ronts, we observed that the "planned mid-year implementation of STARS poses

special challenges that could impact successful deployment of the system." In particular,

we noted that: two separate accounting systems would have to be used to produce the

consolidatecl financial statements; the accelerated reporting schedule f o ~yea~--end
                                                                            .

l'inancial statements would provide only limited time to correct any p~.oble~ns
                                                                             that

occul-red during implementation; and, the burden of auditing two separatc systems of

cont~.ols(both the legacy system and STARS) would severely stress both accounting and

audit I-esoul-ccs.



FY 2005 Financial Statement Audit

In April 2005. the Department decided to move forward with the mid-year

i~riple~nentation
                of its new financial accounting system and the adoption of a new chart of

accounts. Following deployment, our FY 2005 financial statement audit revealed

i~rrplernentationissues related to converting data from its legacy acco~~nting
                                                                            system,

tlevcloping new accounting processes to efkctively use the new system. and identifying

relatccl I-eportingreq~iirements.Notably:

       Kcports needed for management, control, and audit purposes were not available

       following system deployment;

       Accounting processes had not been fully documented; and,

       Operational control procedures were not yet being performed routinely.
Ilespite s~tbstantialeffort, the Depnr-lment was unable to correct many of the problerns

associated with the reorganization of its accounting function and conversion to STARS

by 2005 Fiscal Ycar end. As of September 30, 2005, a number- of significant issues and

cliallcngcs had nor been resolved. Reports needed for management, control, and audit

purposes wcrc not available and a number of system reconciliations I-ernained incomplete.

Thcsc 171-oblcms( 1 ) dclaycd preparation of thc FY 2005 financial statements and

supporring data, and, ( 2 ) impacted the ability of Department officials to monitor and

conrl-ol r hcir budgets.



O n November 9 , 2005, thc Indcpendent Public Acco~lntingfirm (IPA) employed by the

Ol'l'icc of' Inspecror General issued a disclaimer of opinion on the Department's FY 2005

consolidated financial statements and I-eported a material weakness in financial

management and reporting ~ O I I ~ I - O ~Additionally,
                                          S.            because of the control deficiencies,

the II'A determined that the Department's financial management systems did not

subsranrial ly comply wir h all of the requirements of the Federal Financial Management

Irnprovcn~enrAcr. Weaknesses in the Department's unclassified information systems

S C C L I ;iI .~.epo~-r;~ble
                ~~~.     condition. 211~0 continued from prior years.



Review of Remedial Efforts

Given the significance of the problems with financial management and reporting controls,

the Dcpartment established a special management team to develop a corrective action

plan and ovcrscc I-emedial actions. To assist the Department in evaluating the status of

corrective acrions, we initiated a series of reviews in January 2006 to determine whether
(he Llcpart~ncnt'splanned and completed corrective actions adequately addressed its

critical I'inancial management weaknesses.



OLISI . C V ~ C W SI ' O C L I S ~ ~ on the Department's corrective action plan and included assessrnenis

;und tests of nlany revised controls. Our initial review found that certain corrective actions

were nor scheduled for completion until late in FY 2006, which would not have provided

s~~l'l'icicnt
           ti~llcto test the newly established controls. We also noted that in some instances,

plan~lcdactions did not appear to be sufficient to ensure that weaknesses identified during the

FY 2005 auclit were fully addressed. Subsequent reviews by my office found that a number

ol'kcy I'inancial accounting system reconciliations had not been cornplcted and reports were

nor available to per~rlittesting of certain newly created internal controls. Significant system

edit errors re~rlainedunresolved and problems with recording obligations had not been

col-I-cctcd.The Ofl'ice of the Chief Financial Officer concurred with our suggestions and

agrcctl to realign resources and refocus its efforts to address unresolved financial

1l1:lIl:lgc"lcllt iss11cs.



FY 2006 Financia1 Statement Audit

IJccai~scol'rhc disclaimel- of opinion, it was possible to render an opinion only on the

Llcpul-tnlent's Balance Sheet i n FY 2006. During the FY 2006 audit, thc Department made

signil'icani progress in addressing STARS implementation deficiencies and other proble~ns

that surfaced i n FY 2005. It was, in our judgment, a significant improve~nentover the

lxcvious year. I-lowever, actions necessary to reconcile obligations data converted from the

I>cpa~.t~ne~lr's
            legacy accounting systc~nremained unfinished at year end. Data conversion
dil'lkrcnccs itnp:~ctcd the accuracy o f undelivercd orde1.s halances a1 a ii~irnbc~.
                                                                                   of field ofl'iccs

In addition, niany organizations had not performed periodic reviews ol'obligations and

i~~iciclivcrcd
            ol.dcl- balances. As a result, a number of itndelivered order balances did not

agree with supporting doculnentation, old obligations had not been dcobligaled, and Inany

undcl i vcrcd ordcl-s had negative balances.



                 c s obligations and undelivcrcd ordel-s balances I-esultedi n a material weakness
'l'lie ~ s s i ~ with

i n intcl-nal controls and a clnalified opinion on the Audit ol'the Department's FY 2006

Halancc Sheet. Additionally, problems with unclassified systems sccurity continued as a

~-elx)~.t;iblc
           conditioli I'rom prior yeat-s, and a new reportable condition related to performance

~i~easurcnicnt
            was reported. Consistent with its remedial efforts, exccpt for the issues

i~ssocialcdwith obligations and undelivered orders, nothing come to our attention to suggesi

11ialrhc Ilcpa~.tment'ssystems did not substantially comply with other requit-ements of the

I;cde~-alI:i~~ancial
                  Managelllent Improvcmcnt Act.



Sincc t he issuance of' 0111. FY 2006 financial sti1temenr audit report. we havc cool-dinatcd

with the I>cpart~iic~it
                    ancl havc begun another focused review of its actions to remediate

rIlc p~.obleliisassociated with obligations and ~~ridclivcred
                                                           ordet-s. Should this efl,rl    be

          a1 all sites, and barring any new material weaknesses in FY 2007, the
succcssl~i~l

Ilc(,a~-tnicntwould be in a position to obtain an unqualified opinion in the FY 2007 Audit.

We reccnily hcgan the FY 2007 consolidated financial statement audit and are presently

                         systems assessmenl and testing as part o f that cl'lbrt.
pcrl'orming inlosr~ii~tioli
In surlilr1:tl.y. wc belic\.c rhar a srrong financial management pl-ograill i s i ~ n p o r l a nlo~ thc

             ol' Energy. Based o n our expel-ience, the Deparrment's cul.~.cnlsenior
Ilcp;1111iic111

Icuclc~.shlp,including both the Secretary and the Deputy Secretary, is cotn~nittedto

~ii;tinraini~ig
             slt-ong controls and has been fully invested in resolving weaknesses related

lo thc change in accounling systems. W e will continue to assist the Depal-rment in this

l       o   -   as wc have in the past                           -   by devoting a significanr portion of o i ~ available
                                                                                                                r

~ . c s o i ~ ~ .to
                  c c proviiling
                      s          independenr assessments of the accounting and financial

I I I ; I I I ; I ~ ~ I I I C ~I III ~ - I . : I ~ Iof'
                                                     ~ I I Ihe
                                                             S   Dcpurtmcn~.




'Th:tnk you, M I . Chail-man and members of thc Subcomm~ttee.That concludes my

\ l , ~ t c ~ i i cand
                   ~ l t 1 an1 p ~ ~ p ~to~ un\wcr
                                            l e d qucslton\.
